2311 Douglas Street
Omaha, Nebraska 68102-1214

E
Legal Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-291
ANNE K. BLOCK,
Petitioner,
V.

WSBA, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the RESPONDENTS JOE
BEAVERS, LINDA LOEN, CRYSTAL HILL-PENNINGTON, PORT OF SEATTLE, KALI
MATUSKA, JULIA TAN GA, SEAN GILLEBO, JAMES TUTTLE, KENYON DISEND,
MICHAEL KENYON, ANN MARIE SOTO, SANDRA SULLIVAN, AND MARGARET KING'S
JOINT BRIEF IN OPPOSITION in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.l(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 3134 words, excluding the parts that are
exempted by Supreme Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 4th day of November, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.
PATRICIA BILLOTTE

General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38900

